   United States Department of Agriculture
   Office of Inspector General




Biomass Crop Assistance Program:
Collection, Harvest, Storage and
Transportation Matching Payments Program




                                             Audit Report 03601-0028-KC
                                             May 2012
                            United States Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250


DATE:          May 30, 2012

AUDIT
NUMBER:        03601-0028-KC

TO:            Bruce E. Nelson
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Biomass Crop Assistance Program: Collection, Harvest, Storage and
               Transportation Matching Payments Program


This report presents the results of the subject audit. Your written response to the official draft
report, dated April 25, 2012, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated into the relevant sections
of the report.

We accept management decisions for Recommendations 1 through 15, 18, 19, 20, 22, 25, and 26.
However, we are unable to accept management decision on Recommendations 16, 17, 21, 23,
and 24. Documentation and/or action needed to reach management decision for these
recommendations are described in the relevant OIG Position sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendation for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures for providing final action correspondence for these
recommendations to the Office of the Chief Financial Officer.

We appreciate the cooperation and courtesies extended to us by your staff during the audit.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
Section 1: Implementation of CHST .....................................................................6
   Finding 1: USDA Unable To Assess the Impact of $243 Million Expended
   on CHST ................................................................................................................6
         Recommendation 1 ......................................................................................11
         Recommendation 2 ......................................................................................11
         Recommendation 3 ......................................................................................12
         Recommendation 4 ......................................................................................12
         Recommendation 5 ......................................................................................13
   Finding 2: FSA Needs To Strengthen BCAP ..................................................14
         Recommendation 6 ......................................................................................21
         Recommendation 7 ......................................................................................21
         Recommendation 8 ......................................................................................22
         Recommendation 9 ......................................................................................22
         Recommendation 10 ....................................................................................23
         Recommendation 11 ....................................................................................23
         Recommendation 12 ....................................................................................23
         Recommendation 13 ....................................................................................24
         Recommendation 14 ....................................................................................24
         Recommendation 15 ....................................................................................25
         Recommendation 16 ....................................................................................25
         Recommendation 17 ....................................................................................26
         Recommendation 18 ....................................................................................26
         Recommendation 19 ....................................................................................27
         Recommendation 20 ....................................................................................27
         Recommendation 21 ....................................................................................27
         Recommendation 22 ....................................................................................28
         Recommendation 23 ....................................................................................28
         Recommendation 24 ....................................................................................29
         Recommendation 25 ....................................................................................29
         Recommendation 26 ....................................................................................30
Scope and Methodology.........................................................................................31
Abbreviations .........................................................................................................33
Exhibit A: Summary of Monetary Results ..........................................................34
Agency’s Response .................................................................................................35
Biomass Conversion Assistance Program: Collection, Harvest,
Storage, and Transportation Matching Payments Program

Executive Summary
In the 2008 Farm Bill, Congress established the Biomass Crop Assistance Program (BCAP), a
program that, in part, provided matching payments to the owners of renewable biomass1 to
encourage them to collect, harvest, store, and transport such material to a biomass conversion
facility,2 where it would be used to produce heat, power, bio-based products, or advanced
biofuels. Ultimately, these matching payments provided an incentive for producers to collect
biomass, such as crop residue and wood waste, for energy production. In 2009, as part of an
initiative to decrease the nation’s dependency on foreign oil, the Department of Agriculture
(USDA) took steps to expedite BCAP’s implementation and began issuing matching payments
for the cost of collecting, harvesting, storing, and transporting (CHST) biomass. USDA assigned
responsibility for the expedited implementation of the program to the Farm Service Agency
(FSA). At FSA’s request, the Office of Inspector General (OIG) initiated this audit to evaluate
the adequacy of the agency’s management controls to ensure that the program was implemented
and administered timely and effectively, and that funds were properly expended for eligible
purposes.

Based on our review of $30 million of the $243 million in CHST matching payments issued as of
October 2010, we found that, while USDA implemented CHST in accordance with statutory
requirements and in compliance with the directed timeframe, the program was launched without
sufficient management control structures needed to provide clear program direction and ensure
program accountability. Specifically, FSA did not develop program performance goals,
outcome-based performance measures, a program-dedicated data management system, a
handbook of administrative operating procedures, or an internal review process to monitor and
evaluate program implementation. Without an effective management control structure, the
efforts of agency personnel to administer the program were less effective than they could have
been, and field-level agency employees often processed program applications inconsistently.
Additionally, while FSA can identify the amount of payments it issued, the agency cannot
meaningfully report on the effectiveness of those payments in achieving any particular program
goal.




1
  P.L. 110-246, Section 9001 (12) defines the term “renewable biomass” as materials, pre-commercial thinnings, or
invasive species from National Forest System land and public lands that are byproducts of treatments to reduce
hazardous fuels, control insect infestations, and restore ecosystem health; would not otherwise be used for higher
value products; and are harvested in accordance with an appropriate land management plan. Renewable biomass
also includes any organic material that is available on a recurring basis from non-Federal lands or lands held in trust
by the United States, including feed grains, other agricultural commodities, other plants and trees, algae, crop
residue, other vegetative waste material (including wood waste and wood residues), animal waste and byproducts,
food waste, and yard waste.
2
  P.L. 110-246, Section 9001 (6) defines the term “biomass conversion facility” as a facility that converts or
proposes to convert renewable biomass into heat, power, biobased products, or advanced biofuels.

                                                                             AUDIT REPORT 03601-0028-KC               1
Indeed, neither Congress nor USDA articulated a clearly established program goal so that CHST
matching payments would contribute to decreasing the nation’s dependence on foreign oil, or
other related purposes. Instead, the program purpose was simply stated as being to assist
agricultural and forest land owners and operators with collection, harvest, storage, and
transportation of eligible material3 for use in a biomass conversion facility. In examining this
stated purpose, questions arise as to the intent of Congress and USDA. For example, if the intent
was to put money into the hands of eligible material owners, then FSA did disburse $243 million
in matching payments to eligible owners. However, if the intent of providing assistance was to
develop new types, sources, or uses for biomass, then program accomplishments become less
apparent. Only 2 of the 27 biomass conversion facilities we visited were involved with new
conversion processes that were attracting new types and sources of biomass materials;
representatives for the other 25 facilities confirmed that few new suppliers were secured in
connection with CHST. The results of our review indicate that the matching payments
authorized by Congress and disbursed by USDA did little to stimulate the collection, harvest,
storage, or transportation of new types or sources of biomass materials.

As one might expect for a program launched without the sufficient management control
structures needed to provide clear program direction and ensure program accountability, USDA
employees committed many errors and inconsistencies as they accepted applications from both
the owners of biomass and biomass conversion facilities, approved applicants, and calculated
payments for biomass delivered to the facilities. These errors included approving biomass
facilities for CHST without reviewing their financial information (not required by statute or
procedure), using different inconsistent methods to calculate the eligible quantity of biomass
material that owners delivered to facilities, and failing to spot check deliveries consistently.
Many of these errors resulted from USDA not being thoroughly familiar with the biomass
conversion industry; other errors were problems that USDA should have anticipated based on its
experience with other programs. Some errors were influenced by the expedited timeframe within
which USDA was required to implement the program, and a corresponding insufficiency of
program structure in accordance with established norms for Federal management. In total, OIG
questioned over $400,000 in payments issued to biomass material owners due to these various
errors.

OIG concluded that, if BCAP and CHST are to accomplish their intended purpose, USDA needs
to take immediate steps to establish the program with an adequate management control structure
providing clear program direction and ensuring program accountability. USDA must also act to
resolve the errors and inconsistencies we observed at the field-level.




3
 P.L. 110-246, Section 9011 (6) (A) defines “eligible material” as renewable biomass, with the exclusion of any
crop that is eligible to receive payment under title I of the Food, Conservation, and Energy Act of 2008 or an
amendment made by that title, animal waste and byproducts, food waste, yard waste, or algae.



2     AUDIT REPORT 03601-0028-KC
Recommendation Summary
Establish an adequate management control structure that will provide clear program direction
and ensure program accountability, including performance goals; outcome-based performance
measures; a program handbook setting forth policies and procedures governing program
administration; forms specifically tailored to facilitate day-to-day administration and capture of
relevant program data; and a data system with applied edit checks and a structure designed to
facilitate data validation, management reporting, and data analysis.

Correct the errors and inconsistencies that occurred as part of FSA issuing $243 million in CHST
payments since 2009, including the recovery of more than $367,000 in overpayments and the
disbursement of over $22,000 in underpayments.4 (Exhibit A presents a summary of questioned
monetary amounts.)

Agency Response
In FSA’s April 25, 2012, response to the official draft report, the agency agreed with all findings
and recommendations in the report. FSA’s response to the official draft report is included in its
entirety at the end of this report.

OIG Position
We accept FSA’s management decisions for Recommendations 1 through 15, 18, 19, 20, 22, 25,
and 26. However, FSA did not provide sufficient detail regarding its planned corrective actions
for Recommendations 16, 17, 21, 23, and 24. We have provided our comments and what actions
are needed to reach management decision for these recommendations in the OIG position section
of the report.




4
  OIG questioned an additional amount of nearly $12,000 in matching payments that was not recommended for
recovery.

                                                                       AUDIT REPORT 03601-0028-KC           3
Background and Objectives

Background
In the 2008 Farm Bill, Congress established the Biomass Crop Assistance Program (BCAP),
which was intended to support the establishment and production of eligible crops of renewable
biomass.5 BCAP provided funding for the establishment of project areas6 (not yet implemented
at the time of the audit), and also provided funding for matching payments to assist agricultural
and forest landowners and operators with the cost of collection, harvest, storage, and
transportation (CHST) of eligible material7 for use in a qualified biomass conversion facility.8
These matching payments provided an incentive for producers to collect biomass, such as crop
residue and wood waste, for energy production.

On May 5, 2009, a Presidential document was issued calling for a decrease in the nation’s
dependency on foreign oil through increased investment in and production of biofuels.9 As part
of this effort, the document called for the CHST matching payment portion of BCAP to be
implemented within 30 days. Accordingly, on June 11, 2009, USDA published a notice of funds
availability (NOFA) in the Federal Register for the collection, harvest, storage, and
transportation of eligible biomass materials to qualified biomass conversion facilities. Within
USDA, the Commodity Credit Corporation (CCC) and the Farm Service Agency (FSA) were
delegated primary responsibilities for implementing CHST.

The 2008 Farm Bill authorized USDA to use CCC funds, in such sums as are necessary, to fund
BCAP for fiscal years (FY) 2008 through 2012. For FY 2009, the Office of Management and
Budget (OMB) apportioned $25 million for CHST funding. In November 2009, OMB
apportioned an additional $517 million for FY 2010, of which $243 million was expended. In
July 2010, Congress limited total BCAP funding to $552 million for FY 2010 and $432 million
for FY 2011; in April 2011, Congress further limited BCAP funding for FY 2011 down to
$112 million. In November 2011, Congress capped total BCAP funding for FY 2012 at
$17 million.


5
  P.L. 110-246, Section 9001 (12) defines the term “renewable biomass” as materials, pre-commercial thinnings, or
invasive species from National Forest System land and public lands that are byproducts of treatments to reduce
hazardous fuels, control insect infestations, and restore ecosystem health; would not otherwise be used for higher
value products; and are harvested in accordance with an appropriate land management plan. Renewable biomass
also includes any organic material that is available on a recurring basis from non-Federal lands or lands held in trust
by the United States, including feed grains, other agricultural commodities, other plants and trees, algae, crop
residue, other vegetative waste material (including wood waste and wood residues), animal waste and byproducts,
food waste, and yard waste.
6
  A geographic area with specified boundaries submitted by a project sponsor and approved by the Commodity
Credit Corporation under the establishment and annual payment component of BCAP.
7
  P.L. 110-246, Section 9011 (6) (A) defines “eligible material” as renewable biomass, with the exclusion of any
crop that is eligible to receive payment under title I of the Food, Conservation, and Energy Act of 2008 or an
amendment made by that title, animal waste and byproducts, food waste, yard waste, or algae.
8
  P.L. 110-246, Section 9001 (6) defines the term “biomass conversion facility” as a facility that converts or
proposes to convert renewable biomass into heat, power, biobased products, or advanced biofuels.
9
  Memorandum for the Secretary of Agriculture, the Secretary of Energy, and the Administrator of the
Environmental Protection Agency, Federal Register, Vol. 74, No. 87, May 7, 2009.

4     AUDIT REPORT 03601-0028-KC
In accordance with statute,10 the NOFA provided for matching payments to eligible material
owners for deliveries of biomass material to qualified biomass conversion facilities. Matching
payments were authorized at a rate of $1 for each $1 per dry ton paid by the facility, not to
exceed $45 per dry ton. The program was intended to provide matching payments to owners for
a period of 2 years.

The NOFA was terminated after the proposed rule for the full implementation of BCAP was
issued on February 3, 2010, at which point FSA halted approvals of any new CHST contracts
with eligible material owners.11 Deliveries by owners with existing contracts were allowed to
continue through the established March 31, 2010, delivery deadline, with FSA county office
committees able to grant 30-day extensions through April 30, 2010. Over $243 million in
matching payments were issued under CHST for FYs 2009 and 2010.

In the fall of 2009, officials representing FSA and OIG met to discuss a request for audit. Based
on concerns expressed by FSA officials at that meeting, OIG agreed to initiate an audit of the
CHST Matching Payment program.

Objectives
The objective of this audit was to evaluate the adequacy of CHST management controls to
ensure timely and effective implementation and administration of the program and to ensure that
FSA funds were properly expended for eligible purposes. As requested by the agency, we also
evaluated the business processes of the program.




10
  P.L. 110-246, Sections 9011 (d) (1) (B) and (d) (2) (B).
11
  The proposed rule also included authorization for establishment and annual payments associated with BCAP
project areas.

                                                                        AUDIT REPORT 03601-0028-KC           5
Section 1: Implementation of CHST

Finding 1: USDA Unable To Assess the Impact of $243 Million Expended on
CHST
While USDA implemented the CHST in accordance with statutory requirements and in
compliance with the directed timeframe, the Department did not develop the management
control structures needed to provide clear program direction and ensure program accountability.
Specifically, USDA did not develop program performance goals, outcome-based performance
measures, a program-dedicated data management system, a handbook of administrative operating
procedures, or an internal review process to monitor and evaluate program implementation.
USDA did not develop and implement these important management controls because the
Department focused on implementing CHST within the 30-day timeframe for an expedited
program launch. Without an effective management control structure, the efforts of agency
personnel to administer the program were less effective than they could have been, and
field-level agency employees often processed program applications inconsistently. In addition,
USDA did not establish and report any measureable program accomplishments associated with
the disbursement of $243 million in CHST matching payments during the 7-month span of
program operation in FYs 2009 and 2010.

The Government Performance and Results Act (GPRA) requires agencies to develop strategic
plans, set performance goals, and report annually on actual performance compared to goals.12
The Office of Management and Budget’s (OMB) Circular A-123 provides guidance to Federal
managers on the establishment of internal controls designed to ensure the effectiveness and
efficiency of operations, as well as compliance with applicable laws and regulations. The
circular specifies that, as agencies implement new programs, they should design management
control structures that help ensure accountability for results. The circular further provides that
programs must operate consistently with the agency mission and with minimal potential for
waste, fraud, and mismanagement.13

Due to the expedited timeframe for implementing CHST, USDA did not develop the
management control structures needed to provide clear program direction and ensure program
accountability, including the establishment of program performance goals, outcome-based
performance measures, a program-dedicated data management system, a handbook of
administrative operating procedures, and an internal review process to monitor and evaluate
program implementation.




12
  OMB Circular A-123, Management’s Responsibility for Internal Control, Section III, December 21, 2004.
13
  OMB Circular A-123, Management’s Responsibility for Internal Control, Sections I, II, and III, December 21,
2004.

6    AUDIT REPORT 03601-0028-KC
        USDA Needs To Establish Performance Goals for CHST

        USDA did not establish performance goals to serve as the basis for program
        accountability for CHST.14 Consistent with the 2008 Farm Bill, the NOFA articulated the
        statutory purpose of CHST as providing assistance to owners and operators with the
        collection, harvest, storage, and transportation of eligible material for use in biomass
        conversion facilities. As enacted and articulated, the purpose for CHST was too vague to
        define the accomplishments the Department hoped to achieve. As a result, USDA did not
        have a focus for establishing meaningful performance goals to evaluate the program’s
        effectiveness.

        For example, if the purpose of providing CHST matching funds is to put money into the
        hands of eligible material owners, then the Department can be credited with disbursing
        $243 million in matching payments. However, if the purpose of providing assistance is
        to develop new types, sources, or uses for biomass, or to increase the production of heat,
        power, bio-based products, or advanced biofuels, then the Department’s accomplishments
        become less apparent or cannot be determined. Only 2 of the 27 biomass conversion
        facilities we visited were involved with new conversion processes that were attracting
        new types and sources of biomass materials. Interviews with representatives for the other
        25 facilities stated that few new suppliers were secured in connection with CHST. In
        order to evaluate increased production of heat, power, bio-based products, or advanced
        biofuels, USDA would need baseline data from individual biomass conversion facilities
        as well as outputs applicable to the types and quantities of biomass materials received and
        processed. USDA did not collect these data. The results of our review indicate that the
        matching payments authorized by Congress and disbursed by USDA did little to
        stimulate the collection, harvest, storage, or transportation of new types or sources of
        biomass materials or to increase the production of heat, power, bio-based products, or
        advanced biofuels.

        USDA Needs To Establish Performance Measures for CHST

        Since GPRA, Federal agencies have been required to establish performance measures that
        address not just how much they spend or how many projects they funded, but how
        effectively their actions have contributed to the planned goal. In this way, Federal
        agencies should focus their reporting on how effectively the program performed in
        achieving established objectives.15

        As we have already noted, without a well articulated performance goal, USDA could not
        establish outcome-based performance measures to assess the accomplishments or impact
        of CHST. USDA did capture and report data related to the total dollar amount of

14
   A “performance goal” is the target level of performance expressed as a tangible, measureable objective against
which actual achievement shall be compared, including a goal expressed as a quantitative standard, value, or rate.
Government Performance and Results Act of 1993, Section 1115 (f) (4).
15
   Performance measurement is the ongoing monitoring and reporting of program accomplishments, particularly
progress toward pre-established goals. Performance Evaluation and Measurement, Definitions and Relationships,
Government Accountability Office, May 2011.

                                                                           AUDIT REPORT 03601-0028-KC                7
      matching payment funds expended, as well as the quantities of various biomass materials
      for which matching payments were disbursed. These measurements, however, only
      represent the volume of work performed rather than outcomes reflecting the effectiveness
      of how the program performed. In other words, they measure output rather than
      outcome.

      Although FSA program officials considered the dry ton quantities of delivered biomass
      materials an appropriate performance measure, OIG does not agree that this is an
      appropriate outcome-based performance measure. This measure represents a quantity or
      volume of material subject to conversion, but does not provide a direct measure of
      conversion process outcomes, such as heat, power, bio-based products, or advanced
      biofuels produced from the material. Industry groups and facilities can provide
      conversion equivalents for various types of biomass materials, but such information was
      not gathered under CHST and biomass conversion facilities were not required to provide
      baselines against which any changes in outcomes could be measured.

      USDA Needs a Data Management System Dedicated to CHST

      USDA did not develop a data management system to facilitate the collection, analysis,
      and reporting of accomplishment data specifically for CHST. Instead, USDA requested
      and received OMB approval to use the existing Conservation Reporting and Evaluating
      System (CRES) and the corresponding Form AD-245 (Request for Cost Shares/Practice
      Approval and Payment Application) to collect data and report accomplishments
      associated with the initial program implementation. Since CRES and Form AD-245 were
      developed to facilitate the administration and management of conservation cost-sharing
      programs, the system and form did not always correlate with program aspects of CHST,
      nor did the system and form include program-specific data fields or edit checks. While
      FSA did develop component codes for biomass material categories, we found that FSA
      made only one modification to the Form AD-245 for CHST—the inclusion of a
      program-specific certification within the remarks section on page 1. All other sections of
      the form remained unchanged, with terminology related to USDA-administered
      conservation programs.

      For example, CRES did not include a data field to capture the delivery date for biomass
      material reported on the proof of delivery presented by the material owner when applying
      for CHST matching payments. This date is important as biomass material delivered prior
      to USDA approval of the owner application to participate in the program is not eligible
      for matching payment. Because CRES did not capture delivery dates, no automated data
      check was available to verify the eligibility of biomass material based on delivery date.
      Thus, field-level personnel were required to perform manual verifications of material
      eligibility based on comparisons of application approval and material delivery dates. The
      availability of an automated data check could have prevented the issuance of about
      $280,000 in improper payments identified during our review, attributed to early
      deliveries of biomass material. These improper payments are described in Finding 2.




8   AUDIT REPORT 03601-0028-KC
National office program officials stated that due to time constraints, there was insufficient
time and resources to develop a new program-dedicated data management system or to
create and receive approval for new forms.

USDA Needs To Develop Detailed Program Guidance for CHST

While a NOFA establishes authority for available program funding and sets forth general
eligibility criteria for program participation, it does not provide detailed policies and
procedures to facilitate day-to-day program administration. Such policies and procedures
are usually developed and presented within a program handbook. CHST, however, was
implemented without such a handbook. Challenged with an accelerated timeframe for
implementing the program, USDA instead relied on a series of program notices, as well
as question and answer sheets summarizing teleconference discussions with State office
program specialists, to provide guidance and direction for day-to-day program
administration.

Program notices usually provide supplemental explanation and clarification of policies
and procedures presented within a program handbook. While the question and answer
sheets attempted to address situations encountered by field-level personnel, we noted that
some of the questions were not fully addressed during teleconferences and, thus, the
question and answer sheets did not provide clear and complete guidance to field
personnel. The informal nature of the question and answer sheets also caused some
field-level personnel to question whether the provided guidance rose to the level of
official policy. Without adequately prescribed program guidance, USDA lacked the
management control structure needed to implement and administer the program. The
lack of sufficient policies and procedures resulted in inconsistent program administration
across States and counties, improper payments, and instances of possible waste, fraud,
and abuse by participants.

In Finding 2, we discuss many of the inconsistencies that occurred because FSA
employees did not have a handbook to rely on. For example, program guidance required
that employees perform a compliance spot check before they issue a matching payment
exceeding $50,000. This spot check served as an important control for confirming the
appropriateness of high-dollar value matching payments. While program guidance
identified two areas of verification to be addressed, the guidance did not specify how
field-level personnel were to carry out the identified verifications or document the results
of such compliance spot checks. One county office did not maintain sufficient
documentation to support 42 required spot checks prior to issuing matching payments
totaling more than $3 million.

National office program officials advised that they were developing a BCAP handbook
when they were directed to implement CHST in 30 days. Once the deadline was in place,
agency personnel set aside development of the handbook and began writing program
notices for immediate implementation of CHST.




                                                         AUDIT REPORT 03601-0028-KC        9
         USDA Needs an Internal Review Process for CHST

         USDA did not initiate an effective internal review process to monitor and evaluate
         implementation of CHST, despite the fact that it was a new program involving an
         economic sector, industrial processes, materials, and program participants about which
         FSA had limited knowledge. Referred to as a pilot program, CHST should have been
         subject to monitoring and evaluation during its 7-month operating span to facilitate and
         improve any future re-implementation of the program. By not initiating an effective
         internal review process, USDA was unable to proactively and systematically identify
         weaknesses and make improvements in program implementation and administration.

         FSA did take steps to address problem areas when they were identified. However, these
         efforts relied on questions and complaints by eligible material owners and biomass
         conversion facilities to draw attention to potential problem areas. For example, through
         one owner’s complaint, FSA became aware of a facility sales agreement provision that
         required a “kick back” of CHST matching payment funds to the facility. In response,
         national office program officials worked with the facility to eliminate the provision. As a
         result of this case, FSA issued program guidance specifying that no payments or direct
         benefits should be paid to qualified biomass conversion facilities, except in certain
         circumstances.16 The guidance also provided examples of fraud, waste, or abuse that
         could be used to defeat the program’s intended purpose.

         While FSA took constructive steps to address the potential solicitation of “kick backs,”
         the agency was uncertain whether other facilities had questionable provisions in their
         sales agreements. This uncertainty, in part, prompted FSA in the first half of FY 2010 to
         request an OIG audit of CHST.

         FSA has an established internal review process, the County Office Reviewer Program
         (CORP), for all of its programs. While this process was available to monitor and
         evaluate CHST, only one of the four States we visited had requested and received CORP
         reviews while CHST was operational. These CORP reviews were performed in
         accordance with developed coverage that included examinations and verifications of
         program documents associated with all phases of program administration. The CORP
         reviews identified 16 errors related to completion of the Form AD-245; two improper
         payments were also identified and corrected. State office officials who requested the
         CORP reviews stated they did so due to the large volume and dollar amounts of matching
         payments disbursed through CHST.

         In States where CORP reviews were not performed, officials said that they assumed
         CORP reviews would be performed in the future. Regardless of future intent, we believe
         that CORP reviews should be conducted early within the life of a new program, in order
         to provide the agency with important feedback regarding program implementation and
         administration. Our review of the CORP review documentation completed for CHST

16
  Notice BCAP-8, Questionable Activities Under the Biomass Crop Assistance Program, dated January 6, 2010,
granted an exception when a facility owner held ownership right to eligible material that was delivered to another
biomass conversion facility through an arms-length transaction.

10     AUDIT REPORT 03601-0028-KC
       indicated that such reviews were effective in identifying inconsistent application of
       program guidance, as well as the issuance of improper payments.

As directed, USDA expedited CHST to assist producers in collecting, harvesting, storing, and
transporting eligible material to biomass conversion facilities. However, the program was
implemented without the accompanying development of management control structures needed
to provide the program with proper direction or to account for program accomplishments. As
such, USDA was not positioned to evaluate the relative success or failure of the program.

For any future implementation of CHST, or similar program initiative designed to assist with the
delivery and conversion of biomass materials into energy, product, or fuels, we recommend that
FSA take the following steps to better establish the program prior to implementation:

Recommendation 1
Establish performance goals for BCAP with a defined and measureable relationship to the types
or areas of accomplishment USDA hopes to achieve.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Establish outcome-based performance measures that enable the Department to assess and report
on program accomplishments and impact in relation to the established performance goals.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.




                                                              AUDIT REPORT 03601-0028-KC       11
OIG Position
We accept management decision for this recommendation.

Recommendation 3
Based on the establishment of performance goals and corresponding outcome-based performance
measures, evaluate the need for and initiate action to establish additional data gathering and
reporting requirements on the part of qualified biomass conversion facilities.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 4
Develop a program handbook setting forth policies and procedures governing program
administration, forms specifically tailored to facilitate day-to-day administration and capture of
relevant program data, and a data system with applied edit checks and a designed structure to
facilitate data validation, management reporting, and data analysis.17

Agency Response
In its December 16, 2010, response to OIG’s fast report, FSA advised us that a BCAP handbook, new
forms, and a new data collection and reporting system would be developed by January 2011. FSA
has developed new web based automated forms (BCAP-10 and BCAP-11) to replace the AD-245,
page 1 and page 2. In addition, these new forms include recording the location by tract and field
number for the collection or harvest. The 1-BCAP handbook was released and provides
guidance on using these forms.

OIG Position
We accept management decision for this recommendation.

17
  First issued in Fast Report 03601-28-KC (1), Recommendations for Improving Basic CHST Program
Administration: Biomass Crop Assistance Program Controls Over Collection, Harvest, Storage, and Transportation
Matching Payments Program, December 9, 2010.


12     AUDIT REPORT 03601-0028-KC
Recommendation 5
Develop a strategy for requiring the performance of CORP reviews in States implementing
BCAP and use the results of such reviews to monitor and evaluate overall program
implementation and administration.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.




                                                             AUDIT REPORT 03601-0028-KC      13
Finding 2: FSA Needs To Strengthen BCAP
FSA committed a number of errors that compromised how effective CHST payments would be
in meeting program objectives. Many of these errors resulted from FSA not being thoroughly
familiar with the biomass conversion industry; other errors were problems that FSA should have
anticipated based on its experience with other programs, but overlooked. Some errors were
influenced by the accelerated rate with which FSA started the program, and by the agency’s
failure to structure the program according to established norms for Federal management, as
discussed in Finding 1. Due to these issues, OIG found that FSA issued a total of $401,283 in
improper payments to biomass material owners.

OMB Circular A-123 provides guidance to Federal managers on establishing internal controls
designed to ensure the effectiveness and efficiency of operations, as well as compliance with
applicable laws and regulations. As agencies implement new programs, they should design
management control structures that help ensure accountability for results. Programs must
operate consistently with the agency mission and with minimal potential for waste, fraud, and
mismanagement.18

We found, however, that FSA, in its attempt to promptly begin issuing payments, implemented
the program with a number of control weaknesses. The following weaknesses were caused by
FSA officials not having a full understanding of the biomass conversion industry.

        FSA Needs To Improve How It Determines if Biomass Conversion Facilities are
        Qualified for the Program

        FSA employees reviewed and approved biomass conversion facilities’ CHST program
        applications without the financial and performance information necessary to properly
        evaluate the facilities, since the facilities were not required to submit this information (i.e.
        not required by statute or FSA procedure). As a result, FSA employees risked approving
        facilities that were not financially or operationally capable of required program
        performance, such as honoring sales agreements entered into with eligible material
        owners.

        Although FSA did require biomass conversion facilities to submit copies of all applicable
        environmental, health, and safety permits, State office personnel were not always aware
        of the types of permits individual facilities were required to acquire and maintain.19 State
        office personnel also did not document their actions to follow up and verify that all the
        required permits were in place. Several facilities were approved even though they had
        submitted copies of expired permits with their applications.




18
   OMB Circular A-123, Management’s Responsibility for Internal Control, Sections I, II, and III, December 21,
2004.
19
   Notice of Funds Availability, Federal Register, Vol. 74, No. 111, p. 27770, June 11, 2009.

14     AUDIT REPORT 03601-0028-KC
         FSA Needs To Clarify if the Contracts Biomass Conversion Facilities and Eligible
         Material Owners Enter into are Binding

         During the period reviewed by our audit, we found that one State office required eligible
         material owners to provide binding sales contracts,20 while three other State offices
         allowed eligible material owners to submit non-binding letters of intent.21 While program
         guidance allowed for the submission of both binding and non-binding biomass
         conversion facility sale agreements,22 inconsistency and potential inequity could occur if
         owners in one State must sign binding contracts to enter the program, while others are not
         required to do so.

         When FSA published its final rule for CHST, the agency required eligible material
         owners to submit applications based on information obtained from contracts, agreements,
         or “binding letters of intent.”23 OIG considers this language clearer, but maintains that
         FSA should specify to what extent these letters are binding and what recourse owners
         would have if facilities are unable to perform as stated in the letter.

         FSA Needs To Ensure that CHST Payments are Based on Fair Market Value

         While the purpose of CHST was to assist owners and operators with the collection,
         harvest, storage, and transportation of eligible material for use in biomass conversion
         facilities, the availability of Federal matching payments resulted in a number of qualified
         facilities lowering the payment rates offered to owners for deliveries of biomass
         materials, from a few dollars per ton to as much as 50 percent. Some facilities only
         lowered the payment rates for owners participating in the program, but other facilities
         lowered the prices paid to all owners—which resulted in the owners either feeling
         pressure to participate in the program or to accept material proceeds that were
         significantly less than those previously earned. When facilities lowered their prices
         based on the availability of Federal matching payments, they essentially reaped improper
         benefits from the program; benefits that were intended for biomass material owners. OIG
         maintains that, for future programs of this sort, FSA should be cognizant of how such
         matching payments can affect the market and ensure that qualified facilities are paying
         fair market value based on the processes facilities have historically used to determine the
         rates paid for delivered material, without consideration as to the availability of Federal
         matching payments.




20
   In which a seller agrees to sell and a buyer agrees to buy under terms and conditions spelled out in writing in the
document and signed by both parties.
21
   An interim agreement summarizing the main points of a proposed deal. This does not normally constitute a
definitive contract but signifies a genuine interest in reaching a final agreement.
22
   Notice BCAP-2, Implementing the Biomass Crop Assistance Program’s Collection, Harvest, Storage, and
Transportation Matching Payment Program, July 12, 2009.
23
    7 Code of Federal Register (CFR) Part 1450.104 (c) (1), October 27, 2010.

                                                                            AUDIT REPORT 03601-0028-KC              15
         FSA Needs To Apply Rules to Aggregators and Landowners Consistently

         Like landowners, aggregators—material suppliers that had secured ownership rights to
         biomass materials but were not land owners or tenants—sold biomass to conversion
         facilities, but FSA subjected aggregators to less restrictive program requirements since
         they were not mentioned in the 2008 Farm Bill. FSA officials allowed aggregators to
         forego providing a conservation or forest stewardship plan, which landowners were
         required to provide, and also simplified how they contacted FSA. OIG maintains that, by
         exempting aggregators from these rules, FSA held landowners and tenants to a higher
         standard for participating in the program. FSA needs to better define aggregators’ role in
         the program, and establish consistent guidelines for both types of program participants.

         FSA Needs To Clarify How County Offices Will Establish Contracts for Owners
         Delivering Multiple Types of Biomass

         We found that county offices responded inconsistently when owners participated in the
         program and delivered multiple types of biomass to conversion facilities. While some
         county offices established a single contract encompassing multiple material types, other
         county offices created separate contracts for each type of biomass to be delivered.24 Since
         establishing a single contract offered owners greater flexibility (if they did not deliver
         enough of one type of biomass, they could compensate with another), the owners forced
         to use multiple contracts were at a disadvantage and might not be able to maximize their
         matching payment. For future CHST payments, OIG maintains that FSA needs to clearly
         define how county offices should establish contracts involving multiple types and sources
         of biomass material to be delivered to a single biomass conversion facility.

         FSA Needs To Establish a Consistent Methodology for Determining the Quantity of
         Deliverable Biomass

         When county offices determined the eligible quantity of deliverable biomass material,
         upon which matching payment obligations were based, they used three different
         methodologies, each of which yields very different results: (1) they simply credited the
         entire quantity of biomass material reflected on the sales agreement; (2) they applied
         formulas to adjust the quantities of material reflected on the sales agreement for delivery
         by March 31, 2010;25 or (3) the owner provided an estimate of the quantity of material to
         be delivered by March 31, 2010.

         County offices began using these differing methodologies when FSA issued guidance
         advising that matching payment obligations for FY 2010 should only reflect the amount


24
   Notice BCAP-2, Implementing the Biomass Crop Assistance Program’s Collection, Harvest, Storage, and
Transportation Matching Payment Program, Paragraph 5C, July 12, 2009, allowed a single owner contract to cover
multiple material types and origination points, though separate contracts were required for each different qualified
facility with which an owner held a sales agreement.
25
   Variations in applied formulas were noted involving the month in which an owner was approved to participate in
the program and the number of remaining months within the calendar year, fiscal year, or designated delivery
period.

16     AUDIT REPORT 03601-0028-KC
         of deliverable material expected to be completed by March 31, 2010.26 Since many sale
         agreements covered deliveries for longer periods of time, FSA county employees
         adjusted the delivered quantities, but did so inconsistently. OIG maintains that FSA
         needs to ensure that these quantities are determined consistently because they directly
         affect the matching payments owners receive.

         FSA Needs To Require Biomass Conversion Facilities to Test the Moisture Content of
         Delivered Biomass Consistently

         CHST required that differing moisture levels be accounted for when FSA calculated
         matching payments. When owners deliver biomass to conversion facilities, the facilities
         are required to test and determine the moisture content so that they can determine the dry
         weight tonnage that is actually being delivered. Measuring by dry weight serves to
         equalize payments for different materials, which naturally have different moisture rates.

         Based on visits to 27 qualified biomass conversion facilities, we found that conversion
         facilities were not performing these tests consistently, and were in fact using five
         different methods. FSA’s program guidance allowed these different approaches since it
         did not specify any minimum or required frequency of material sampling and moisture
         testing to be performed by qualified conversion facilities.27 Unless FSA requires a
         specific method, the agency cannot ensure that owners and facilities are being treated
         fairly. We found that one FSA county office (Johnson County, Missouri) disbursed
         approximately $4,100 in improper payments for delivered quantities of biomass material
         that were only adjusted to reflect a 12-percent moisture content, in spite of program
         guidance that called for adjustments to reflect zero percent moisture.28, 29

         We also noted that in lieu of establishing a standard dry ton payment rate, facilities
         calculated an effective dry ton payment rate for each load of delivered material based on
         the total payment amount for wet ton quantity of delivered material and the calculated dry
         ton equivalent. Analysis of this methodology evidenced that higher levels of moisture
         content resulted in the establishment of higher dry ton payment rates and subsequently
         higher dollar matching payment rates. In this context, program participants were
         effectively rewarded for delivering eligible material with the highest moisture content



26
   Notice BCAP-6, Policy for FY 2010 Biomass Crop Assistance Program Collection, Harvest, Storage, and
Transportation Obligations and Allocations, Paragraph 2A, November 19, 2009, limited the period of performance
for FY 2010 to a reasonable period of time necessary to complete delivery, not to exceed March 31, 2010.
27
   Notice BCAP-2, Implementing the Biomass Crop Assistance Program’s Collection, Harvest, Storage, and
Transportation Matching Payment Program, Paragraph 2B, July 12, 2009, only provided that the gross weight of
delivered material be converted to a dry weight tonnage equivalent, reflective of the occurring percentage of
moisture.
28
   Approximately $750 of these improper matching payments corresponds to material that was delivered prior to
FSA approval of the underlying application; thus the entire quantities of these delivered materials were ineligible for
matching payments.
29
   Discussion of this issue was included in OIG in Fast Report 03601-28-KC (1), Recommendations for Improving
Basic CHST Program Administration: Biomass Crop Assistance Program Controls Over Collection, Harvest,
Storage, and Transportation Matching Payments Program, December 2010.

                                                                           AUDIT REPORT 03601-0028-KC              17
           that facilities were able to accept—and thus FSA paid higher matching payment rates for
           the delivery of material with higher moisture content.

           FSA Needs To Require Consistent Delivery Documentation from Eligible Material
           Owners

           Although the NOFA required owners to submit copies of original scale tickets along with
           copies of checks or invoices for their load deliveries as part of their request for matching
           payments, FSA allowed owners to use delivery settlement sheets in lieu of scale tickets.30
           Some county offices allowed owners to submit settlement sheets in lieu of scale tickets,
           but other county offices continued to require the submission of scale tickets. In cases
           with large dollar amounts of matching payment obligations and large numbers of
           delivered loads, county offices were delayed by the necessity of examining large numbers
           of individual scale tickets.

           OIG noted that the BCAP final rule states that in order for eligible material owners to
           receive a matching payment, they must submit specific data—such as the actual tonnage
           delivered and total payment received—rather than a specific type of document.31 The
           final rule emphasizes the substance of delivery information over the form in which the
           information is presented, and we consider this issue addressed.

           Additionally, we visited one county office (Shannon County, Missouri) that did not
           require owners to submit any delivery documentation in support of issued matching
           payments; instead, the county office entered into arrangements with two facilities to
           receive owner delivery documentation via electronic mail or data transmission. While
           these arrangements allowed the county office to receive delivery documentation directly
           from the facilities, we identified six owners who did not receive matching payments to
           which they were entitled. Five owners did not receive over $18,500 in matching
           payments as county office personnel overlooked an e-mail containing delivery
           documentation forwarded by the biomass facility. A sixth owner did not receive over
           $3,400 in matching payments as the facility was not aware the supplier was a participant
           in the program, and thus did not forward applicable delivery documentation.

           FSA Needs To More Consistently Determine When Owners Fulfilled CHST Matching
           Payment Contracts

           When it came time for county office program personnel to determine if owners had
           fulfilled CHST matching payment contracts (i.e., reached the eligibility limit to earn
           additional matching payments), we found that they used three different methods. They
           counted the contract as fulfilled if the owner (1) had completed the delivery of approved
           tons of biomass material; (2) earned the full obligated dollar amounts; or (3) reached the
           first limiting factor (tons or dollars). Without a policy to specifically designate the point
           at which contract obligations should be considered fulfilled, county office personnel


30
     “BCAP Questions and Answers,” January 12, 2010.
31
     7 CFR Part 1450, October 27, 2010.

18        AUDIT REPORT 03601-0028-KC
         applied different limits, which meant that owners were subject to inequitable treatment
         resulting in potential overpayments or underpayments of CHST matching funds.32

         While many of these problems occurred because FSA launched CHST without a detailed
         understanding of the biomass industry, other problems occurred in areas that FSA should
         have been more alert to, based on its prior program experience.

         FSA County Office Employees Did Not Always Ensure that Owners Applying for the
         Program Filled out Forms Correctly

         Because county employees did not receive adequate program guidance or subsequent
         oversight (such as a second-party review), they did not always ensure that owners
         applying to CHST completed their forms correctly. We found that one county office
         approved a blank form, which provided no information about how much biomass the
         owner intended to supply. Additionally, we identified six application forms at three
         county offices that were missing an approval signature or date—this date is critical to
         establishing the point at which deliveries of biomass material become eligible for
         matching payments. While the absence of an approving signature or date may not
         invalidate the legitimacy of a matching payment contract, accurate and complete forms
         are essential for properly enforcing program provisions and documenting decisions made
         during the course of operations.

         FSA Needs To Avoid Potential Conflicts of Interest for its Approving Officials33

         In one State office, we found that FSA approved a county executive director to serve as a
         delegated approving official for CHST despite the fact that the director held an
         investment interest in the only qualified biomass conversion facility in the county. He
         was also participating in CHST as an eligible material owner.

         As there existed only one approved biomass facility in the county, the director stood in a
         position to potentially influence the facility’s business operations. In addition, county
         office program personnel stated that unused CHST obligations were redistributed daily to
         new program applicants or to approved applicants who were seeking increases in their
         approved obligations through unused funding. The director would have had knowledge
         as to the timing and availability of unclaimed matching payment obligations, and in fact
         received an increase in matching payment obligation that was not subject to State office
         approval.


32
   The BCAP final rule does not require sales agreements to set a fixed payment rate. As such, the final rule allows
the continued possibility for prices to fluctuate, which in turn may result in an owner reaching one of the limiting
factors before the other.
33
   FSA Handbook 22-PM, County Office Personnel Management, Section 402 B, August 8, 1984, defines the
appearance of a conflict of interest as a situation in which it could be concluded that an employee’s or committee
member’s private interest is possibly in conflict with his or her ASCS (agency designation prior to FSA) duties and
responsibilities, even though there may not actually be a conflict. Section 402 C 3 also provides that county office
employees may not engage directly or indirectly in any business transaction that might interfere with the proper and
impartial performance of their duties.

                                                                          AUDIT REPORT 03601-0028-KC             19
     The director appropriately disclosed the circumstances of his investment in the biomass
     conversion facility to State office program officials, who determined that the
     circumstances were no different from other types of program participation by county
     executive directors and that no conflict of interest existed. OIG maintains that, by
     allowing the director to serve as an approving official for the program, FSA created the
     risk of a perceived conflict of interest.

     FSA Needs To Ensure that Owners Do Not Receive Payment for Biomass Delivered
     Before the Beginning of Their CHST Contracts

     Owners were not authorized to receive CHST matching payments for any delivery made
     before the initial application for CHST was received and approved by the FSA county
     office; however, we found that 7 of the 12 county offices we visited issued improper
     payments for deliveries of biomass material completed prior to approval. County office
     program officials either did not identify the dates of early deliveries or exclude such
     deliveries when computing matching payments. As a result, FSA issued improper
     payments totaling about $280,000.

     FSA Needs To Ensure that its County Office Personnel Perform Spot Checks Consistently

     Although FSA required county offices to spot check biomass deliveries valued at more
     than $50,000, we found that county employees followed this requirement inconsistently.
     They were unsure how the $50,000 threshold should be applied and questioned if this
     requirement could reasonably be met. When they did perform spot checks, they used
     inconsistent methods in performing and documenting the checks. While establishing a
     required spot check for matching payments exceeding $50,000 constituted a reasonable
     compliance measure, OIG maintains that FSA needs to provide its employees better
     guidance concerning how the spot checks should be performed. Doing so is particularly
     important as the spot checks were the only compliance measure specifically developed
     for evaluating CHST.

     FSA Needs To Take Adequate Steps to Prevent Unscrupulous Owners and Facilities from
     Scheming to Defraud CHST

     Program guidance sets forth the penalties for program participants who are found to
     perpetrate a “scheme or device,” essentially actions involving coercion, fraud,
     misrepresentation, depriving any other person or legal entity of any payments, or
     obtaining a payment that otherwise would not be payable. FSA advised county office
     personnel to be aware of these situations, but did not provide guidance concerning what
     program areas might be vulnerable to potential schemes or devices or establish
     techniques to test for and identify schemes or devices perpetrated by unscrupulous
     owners or facilities.

     OIG identified three cases of potential scheme or device that FSA employees did not
     identify because they were either not aware of the existing situations or were unaware
     that such situations constituted potential scheme or device situations. OIG found that the


20   AUDIT REPORT 03601-0028-KC
         arrangements and transactions carried out in these three cases appear to have been created
         with the aim of circumventing the intent of CHST’s agreement terms and guidelines. We
         questioned payments for the three cases totaling about $95,000.34

OIG acknowledges that FSA faced significant challenges in implementing BCAP within the
required 30-day timeframe, and that the program’s history has involved dramatic changes in its
funding levels—changes that no doubt affect the priority the agency accords the program. We
maintain, however, that FSA needs to take the following steps to establish an effective control
structure for any future CHST payments so that those payments are accurately calculated and
consistently applied.

Recommendation 6
Expand Form BCAP-1, Facility Overview Form, and any accompanying instructions, to require
the submission of detailed financial assurance and surety information, facility operations
information, and biomass conversion process information.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 7
Develop guidance for State office reviews of facility applications for CHST, including how
offices should evaluate financial and operating status and conduct site examinations and visits.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in


34
  All three cases were referred to OIG Investigations for presentation to the applicable U.S. Attorney’s Offices; all
three cases were declined for criminal or civil prosecution. Details of these three cases were reported to FSA
through the issuance of OIG Fast Report 03601-28-KC (2), Recommendations for Preventing or Detecting Schemes
or Devices: Biomass Crop Assistance Program Controls over Collection, Harvest, Storage, and Transportation
Matching Payments Program, February 3, 2011.

                                                                          AUDIT REPORT 03601-0028-KC              21
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 8
Develop guidance for validating facility disclosures of compliance with State and local laws
related to required permits and licenses, including methods to document followup actions on any
expired permits and licenses.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 9
Provide clarification regarding the extent to which various types of facility sale agreements and
the provisions included in such agreements are considered binding or non-binding with respect to
administration of CHST, including the impact of owner or facility noncompliance with sale
agreement provisions.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.




22    AUDIT REPORT 03601-0028-KC
Recommendation 10
Incorporate reporting requirements into the facility application process to establish and evaluate
the methodologies used by biomass conversion facilities for determining the fair market value of
delivered biomass materials.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 11
Establish price comparison requirements to ensure that payment rates for biomass material are
reasonable reflections of market values based on type, volume, and use of material.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 12
Confirm the agency’s intent regarding whether aggregators are eligible to participate in CHST.
Establish consistent and equitable program requirements applicable to all types of material
suppliers eligible to participate in CHST.




                                                              AUDIT REPORT 03601-0028-KC        23
Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 13
Provide clearly defined guidance regarding the manner in which owner contracts should be
established when working with multiple types and sources of biomass material to be delivered to
a single biomass conversion facility.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 14
Provide clearly defined guidance to field-level personnel designating the proper method by
which eligible quantities of deliverable material should be established.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.




24    AUDIT REPORT 03601-0028-KC
OIG Position
We accept management decision for this recommendation.

Recommendation 15
Establish a consistent policy and methodology for material sampling and moisture testing
applicable to all conversion facilities seeking qualification for CHST. Incorporate such policy
into the memorandum of understanding facilities enter into with the FSA Deputy Administrator
for Farm Programs.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 16
Require the field office in Johnson County, Missouri, to (1) review all delivery documents
submitted by participating owners in support of disbursed matching payments; (2) identify all
improperly established dry weight ton equivalents of biomass material eligible for matching
payments (i.e., all those not reduced to zero percent moisture); and (3) recover all associated
improper payments.

Agency Response
FSA agrees with this recommendation and will work with the Johnson County office, Missouri
to review and recover improper payments found to meet the recommendation impropriety. The
FSA State office of Missouri has the individualized list of the affected contracts and is in the
process of reviewing these contracts with the county. In subsequent correspondence dated
May 2, 2012, FSA agreed to complete final review and recovery of any improper payments by
September 30, 2012.

OIG Position
We are unable to accept FSA’s proposed management decision. In order to reach management
decision, FSA needs to provide us the decisions made on each cited participant and a copy of the



                                                              AUDIT REPORT 03601-0028-KC          25
demand letter for collection for amounts owed to the Government and evidence that these
amounts have been entered as a receivable on the agency’s accounting records or collected.

Recommendation 17
Direct the field office in Shannon County, Missouri, to issue the underpaid amounts of matching
payments for owners who were participating in the program but for which conversion facility
delivery documents were not provided or were overlooked.

Agency Response
FSA agrees with this recommendation and will work with the Shannon County, Missouri office
to review and correct underpaid amounts found to meet the recommendation impropriety. The
FSA State office of Missouri has the individualized list of the affected contracts and is in the
process of reviewing these contracts with the county. In subsequent correspondence dated
May 2, 2012, FSA agreed to complete final review and disbursement of any underpayments by
September 30, 2012.

OIG Position
We are unable to accept FSA’s proposed management decision. In order to reach management
decision, FSA needs to provide us the decisions made on each cited participant and
documentation to support the payment of any underpaid amounts due to producers.

Recommendation 18
Develop a handbook procedure that clearly designates or sets the factor (tons or dollars) upon
which a CHST contract is considered fulfilled and an owner is no longer eligible for matching
payments.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.




26    AUDIT REPORT 03601-0028-KC
Recommendation 19
Incorporate a second party review to verify the establishment of matching payment obligations
and appropriate approval signatures and dates on owner applications to participate in CHST.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 20
Determine whether the circumstances in question constitute a potential conflict of interest which
should have prevented the county executive director from serving as an approving official for
CHST.

Agency Response
FSA will work with the State FSA offices to review CED oversight and possible conflict of
interest for circumstances in question. The 1-BCAP handbook provided limitations of COC
delegation including a prohibition on delegating actions and determinations involving lands
owned by STC, COC, CED’s, or other County Office employees. In subsequent correspondence
dated May 2, 2012, FSA agreed to incorporate the recommendation by September 30, 2012.

OIG Position
We accept management decision for this recommendation.

Recommendation 21
Require, through direction to the appropriate State offices, that county offices recover the
improperly issued matching payments associated with deliveries of biomass material completed
prior to approval of the owners’ CHST applications.

Agency Response
FSA agrees with this recommendation and will work with the appropriate State offices and
county offices to recover improper payments made for biomass material deliveries completed

                                                              AUDIT REPORT 03601-0028-KC       27
before the eligible material had acquired an approved CHST application. The individualized list
of affected contracts has been sent to the State FSA offices in Missouri, Kansas, California,
Maine, and Alabama. In subsequent correspondence dated May 2, 2012, FSA agreed to
incorporate the recommendation by September 30, 2012.

OIG Position
We are unable to accept FSA’s proposed management decision. In order to reach management
decision, FSA needs to provide us the decisions made on each cited participant and a copy of the
demand letter for collection for amounts owed to the Government and evidence that these
amounts have been entered as a receivable on the agency’s accounting records or collected.

Recommendation 22
Develop a handbook procedure that provides clear and specific guidance as to the areas of
coverage to be included and addressed during the performance of $50,000 spot checks, including
the frequency and timing of required onsite visits to facilities, examination and verification steps
to be performed, and a form or format to document the performance and results of performed
spot checks.

Agency Response
Due to the current situation with limited funds and the recent release of the BCAP interim rule
on September 15, 2011, which prioritizes BCAP crop establishment and production payments,
FSA will incorporate the recommendation in the 1-BCAP handbook if funds are appropriated in
fiscal year 2013. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate
the recommendation by September 30, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 23
Evaluate the circumstances of each case and determine whether the actions entered into or
carried out by the owners and facilities constitute a scheme or device.35

Agency Response
In its February 22, 2011, response to OIG’s fast report, FSA advised that the applicable State
offices are involved in examining the case circumstances to determine if the actions by owners

35
  First issued in Fast Report 03601-28-KC (2), Recommendations for Preventing or Detecting Schemes or Devices:
Biomass Crop Assistance Program Controls over Collection, Harvest, Storage, and Transportation Matching
Payments Program, February 3, 2011.


28     AUDIT REPORT 03601-0028-KC
and facilities constitute a scheme or device. FSA further advised that notices of declined case
openings were received from OIG Investigations for two of the three cases cited; consultation on
the third case will take place prior to initiating any corrective action.

OIG Position
We are unable to accept FSA’s proposed management decision. In order to reach management
decision, FSA needs to provide us with the date the determinations will be completed for each
cited case.

Recommendation 24
Based on the determinations reached regarding scheme or device, initiate appropriate
administrative actions including the termination of any violated facility agreements and the
recovery of any improperly disbursed matching payments plus interest. Coordinate with OIG
Investigations prior to initiating any administrative actions.

Agency Response
FSA will work with State and county offices to recover any improper payments associated with
schemes or devices noted in OIG finding, and that all facility agreements were terminated as of
March 2010. In subsequent correspondence dated May 2, 2012, FSA agreed to incorporate the
recommendation by September 30, 2012.

OIG Position
We are unable to accept FSA’s proposed management decision. In order to reach management
decision, FSA needs to provide us the decisions made on each cited participant and a copy of the
demand letter for collection for amounts owed to the Government and evidence that these
amounts have been entered as a receivable on the agency’s accounting records or collected.

Recommendation 25
Create new terms of agreement and guidance that address scheme or device more
comprehensively, and specifically prohibit schemes or devices of this nature. As part of issuing
a program handbook, include guidance that details procedures for investigation, enforcement,
penalties, and appeal rights related to scheme or device determinations.36




36
  First issued in Fast Report 03601-28-KC (2), Recommendations for Preventing or Detecting Schemes or Devices:
Biomass Crop Assistance Program Controls over Collection, Harvest, Storage, and Transportation Matching
Payments Program, February 3, 2011.


                                                                      AUDIT REPORT 03601-0028-KC           29
Agency Response
In its February 22, 2011, response to OIG’s fast report, FSA responded that the BCAP final rule
explicitly prohibits a number of practices associated with these cases and identified as potential
schemes or devices. The final rule specifically defines such practices as program violations.
FSA further responded that corresponding changes are incorporated into the facility agreement
terms and will be further detailed in program policy documents. Officials stated that new facility
agreement terms address facility requirements related to the payment of fair market price, the
issuance of settlement sheets for commingled materials (eligible and ineligible), and the receipt
of payments or reimbursements from owners related to CHST matching payments including any
required repayment in the form of a kickback, value share, or administrative fee. FSA advised
that by month’s end (February 2011) the agency will issue a program handbook to provide
program guidance consistent with the BCAP final rule and include more comprehensive policy
on investigations, enforcement actions, penalties, and appeals related to scheme and device
determinations.

OIG Position
We accept management decision for this recommendation.

Recommendation 26
Create controls and compliance review procedures at the county office level designed to detect
and identify potential schemes or devices.37

Agency Response
In response to the fast report, FSA advised that 1-BCAP handbook will include enhanced
guidance for compliance reviews of qualified facilities and owners. BCAP policy will also
incorporate additional controls to ensure that fair market pricing is being paid, including
enhanced data collection from facilities by FSA as part of the funding allocation process. FSA
further advised that it is developing a number of automated controls in BCAP matching payment
software to ensure the county offices have proper documentation from owners before approving
applications and payment requests. In subsequent correspondence dated May 2, 2012, FSA
agreed to incorporate the recommendation by September 30, 2012.

OIG Position
We accept management decision for this recommendation.




37
  First issued in Fast Report 03601-28-KC (2), Recommendations for Preventing or Detecting Schemes or Devices:
Biomass Crop Assistance Program Controls over Collection, Harvest, Storage, and Transportation Matching
Payments Program, February 3, 2011.


30     AUDIT REPORT 03601-0028-KC
Scope and Methodology
Between February 2010 and October 2011, we performed our audit at FSA Headquarters in
Washington, D.C.; the FSA State offices in Alabama, California, Maine, and Missouri; and
12 FSA county offices (Barbour, Monroe, and Tuscaloosa Counties in Alabama; Butte, Fresno,
and Shasta Counties in California; Franklin, Penobscot, and Somerset Counties in Maine; and
Howell, Johnson, and Shannon Counties in Missouri). We also visited 27 qualified biomass
conversion facilities and 45 eligible material owners.

We initially visited Missouri as it was the first State to approve a qualified biomass conversion
facility and issue a CHST matching payment. In addition, the location of the OIG Regional
Office in Kansas City, Missouri, allowed staff easy access to the facility so that they could gain
knowledge of program operations and test potential audit coverage. We subsequently conducted
reviews in Alabama, California, and Maine as these States represented diverse geographical
locations involving various types of conversion processes and biomass materials. FSA national
officials encouraged us to review a range of different materials and processes. In addition, these
three States were responsible for issuing the highest dollar amounts of CHST matching payments
for FYs 2009 and 2010. As of October 19, 2010, the States we visited had disbursed over
$89 million (Alabama, $24.5 million; California, $29.5 million; Maine, $34.8 million; Missouri,
less than $1 million) of the $243 million in CHST matching payments for FYs 2009 and 2010.

Within each State, we evaluated CHST program administration at three judgmentally selected
county offices, which we selected generally based on the highest dollar amounts of issued
matching payments. We visited a judgmentally selected sample of biomass conversion facilities
primarily based on the quantity of delivered biomass material for which matching payments were
disbursed, as well as the number of sampled owners responsible for such deliveries. Secondary
considerations included the types of biomass materials received, conversion processes operated,
facility location, and corporate ownership. We also visited a judgmentally selected sample of
owners based on the dollar amount of matching payments received, as well as the ability of the
audit team to coordinate location and timing of owner and facility visits.

At FSA national, State, and county office levels, we interviewed personnel responsible for the
administration and management of CHST program operations; we identified and evaluated the
effectiveness of established management control structures. We also identified and assessed the
adequacy of published statutes, regulations, program notices, and associated policies and
procedures used to approve qualified facilities and owners and to ensure proper issuance of
matching payments. At the national office level, we requested and received periodic access to
CRES data, which we queried and evaluated for reasonableness in terms of matching payment
rates and amounts. At the State office level, we examined a judgmentally selected sample of
applications filed by qualified biomass conversion facilities, as well as the agreements entered
into with USDA. At the county office level, we reviewed the contents of CHST payment files
for a judgmentally selected sample of 105 owners who had received over $30 million in
matching payments at the time of our visits.38 Judgmental sample selection was primarily based

38
  For the 12 FSA county offices that we visited, a total of 173 eligible material owners received matching payments
totaling in excess of $40 million as of December 2010.


                                                                         AUDIT REPORT 03601-0028-KC             31
on the dollar value of matching payments received. We examined owner sales agreements with
qualified conversion facilities to ensure the proper establishment of matching payment
obligations. We also examined delivery documentation submitted by owners to verify whether
the information was appropriately reviewed and used by FSA county office personnel in the
processing of CHST matching payments.

Our visits to qualified conversion facilities included interviews with facility representatives
focusing on the facility qualification process and the impact CHST generated on the biomass
industry as a whole, as well as their individual customer base and facility business processes.
We also compared samples of delivery documentation submitted by owners to the FSA county
offices with delivery documentation maintained by the facilities. Where permitted, we
completed tours of the facilities and observed the conversion process operations. Our visits with
owners included discussions of the CHST participant application process and the impact of
available matching payments on their business operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




32    AUDIT REPORT 03601-0028-KC
Abbreviations
BCAP .......................... Biomass Crop Assistance Program
CCC............................. Commodity Credit Corporation
CFR ............................. Code of Federal Regulations
CHST .......................... Collection, Harvest, Storage, and Transportation
CORP .......................... County Office Reviewer Program
CRES........................... Conservation, Reporting, and Evaluation System
FSA ............................. Farm Service Agency
FY ............................... Fiscal Year
GPRA.......................... Government Performance and Results Act
NOFA.......................... Notice of Funds Availability
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
USDA.......................... United States Department of Agriculture




                                                                    AUDIT REPORT 03601-0028-KC   33
Exhibit A: Summary of Monetary Results


     Section    Finding     Recommendation         Description                   Amount          Category
                                                   Overpayments associated
                                                   with facility allowance for
                                                   up to12 percent moisture                      Questioned Costs
                                                   when computing dry ton                        Recovery
       1          2                 16             weight equivalents.             $3,35239      Recommended
                                                   Underpayments based on
                                                   FSA oversight of facility                     Underpayments
                                                   transmitted delivery                          and Over
       1          2                 17             documents.                      $18,656       Collections
                                                   Underpayments due to
                                                   facility’s lack of                            Underpayments
                                                   knowledge of owner                            and Over
       1          2                 17             participation in CHST.           $3,458       Collections
                                                   Overpayments associated
                                                   with deliveries of biomass
                                                   material completed prior                      Questioned Costs
                                                   to approval of Form                           Recovery
       1          2                 21             AD-245.                        $280,142       Recommended
                                                   Improper payments
                                                   associated with owner
                                                   schemes or devices to                         Questioned Costs
                                                   circumvent CHST                               Recovery
       1          2                 24             provisions.                    $83,88340      Recommended
                                                   Facility alleged
                                                   overpayments based on                         Questioned Costs
                                                   owner non-disclosure of                       No Recovery
       1          2                 24             participation in CHST.         $11,79241      Recommended
      Total                                                                       $401,283




39
   Finding 2 references improper payments totaling approximately $4,100. The difference of $748 is captured
within the $280,142 of overpayments associated with deliveries of biomass material completed prior to approval of
form AD-245.
40
   Questioned costs include improper payments of $5,062 and $78,821 associated with two separate cases of
potential scheme or device.
41
   Questioned costs associated with a third case of potential scheme or device. No recommended recovery as, at the
time audit fieldwork was performed, the facility had not initiated a recovery of alleged overpayments to the material
owner; the event needed to trigger the improper payment of CHST matching payments. Questioned costs associated
with the three identified cases of potential scheme or device total about $95,000.

34         AUDIT REPORT 03601-0028-KC
Agency’s Response




                  USDA’S
           FARM SERVICE AGENCY
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 03601-0028-KC   35
United States        DATE:          April 25, 2012
Department of
Agriculture
                     TO:            Director, Farm and Foreign Agriculture Division
Farm and Foreign                    Office of Inspector General
Agricultural
Services
                     FROM:          Philip Sharp, Director
Farm Service
Agency                              Operations Review and Analysis Staff
Operations Review
and Analysis Staff   SUBJECT:       Response to Official Draft Report, Review of Biomass Crop Assistance
1400 Independence
                                    Program: Collection, Harvest, Storage, and Transportation Matching
Ave, SW                             Payments Program, Audit 03601-28-KC
Stop 0540
Washington, DC
20250-0540           The Deputy Administrator for Farm Programs has provided the information below which
                     responds to the subject’s audit recommendations.

                     Recommendation 1

                     Establish performance goals for BCAP with a defined and measureable relationship to the
                     types or areas of accomplishment USDA hopes to achieve.

                     Agency Response:
                     The agency agrees with this recommendation. FSA has established a number of
                     performance goals related to project area establishment and annual payments crop
                     production. FSA has worked to develop a cooperator agreement with project sponsors and
                     a producer reporting process that will enable a measurement of crop production against
                     conversion outputs.
                     Due to the current situation with limited funds and the recent release of the BCAP interim
                     rule on September 15, 2011, which prioritizes BCAP crop establishment and production
                     payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
                     appropriated in fiscal year 2013.

                     Recommendation 2

                     Establish outcome-based performance measures that enable the Department to assess and
                     report on program accomplishments and impact in relation to the established performance
                     goals.

                     Agency Response:

                     The agency agrees with this recommendation. FSA is proposing to consider the
                     establishment of outcome-based performance measures for project area eligible crop
                     production, such as the number of project areas, acres in production, annual yields, crop
                     types, and payments.
Director, Farm and Foreign Agriculture Division
Page 2

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 3

Based on the establishment of performance goals and corresponding outcome-based
performance measures, evaluate the need for and initiate action to establish additional data
gathering and reporting requirements on the part of qualified biomass conversion facilities.

Agency Response:

The agency agrees with this recommendation. For project areas, FSA has evaluated the
need for data collection and has determined that the development of a cooperator
agreement with project sponsors and a producer reporting process that will enable a
measurement of crop production against conversion outputs. Project sponsors are typically
a group of producers or the biomass conversion facility.

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 4

Develop a program handbook setting forth policies and procedures governing program
administration, forms specifically tailored to facilitate day-to-day administration and
capture of relevant program data, and a data system with applied edit checks and a
designed structure to facilitate data validation, management reporting, and data analysis.

Agency Response:

In response to our fast report, FSA advised that a BCAP handbook, new forms, and a new
data collection and reporting system would be developed by January 2011. FSA has
developed new web based automated forms (BCAP-10 and BCAP-11) to replace the AD-
245, page 1 and page 2. In addition, these new forms include recording the location by
tract and field number for the collection or harvest. The 1-BCAP Handbook was released
and provides guidance on using these forms.
Director, Farm and Foreign Agriculture Division
Page 3

Recommendation 5

Develop a strategy for requiring the performance of CORP reviews in States implementing
BCAP and use the results of such reviews to monitor and evaluate overall program
implementation and administration.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 6

Expand Form BCAP-1, Facility Overview Form, and any accompanying instructions, to
require the submission of detailed financial assurance and surety information, facility
operations information, and biomass conversion process information.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 7

Develop guidance for State office reviews of facility applications for CHST, including
how offices should evaluate financial and operating status and conduct site examinations
and visits.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.
Director, Farm and Foreign Agriculture Division
Page 4

Recommendation 8

Develop guidance for validating facility disclosures of compliance with State and local
laws related to required permits and licenses, including methods to document followup
actions on any expired permits and licenses.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 9

Provide clarification regarding the extent to which various types of facility sale agreements
and the provisions included in such agreements are considered binding or non-binding
with respect to administration of CHST, including the impact of owner or facility
noncompliance with sale agreement provisions.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 10

Incorporate reporting requirements into the facility application process to establish and
evaluate the methodologies used by biomass conversion facilities for determining the fair
market value of delivered biomass materials.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.
Director, Farm and Foreign Agriculture Division
Page 5

Recommendation 11

Establish price comparison requirements to ensure that payment rates for biomass material
are reasonable reflections of market values based on type, volume, and use of material.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 12

Confirm the agency’s intent regarding whether aggregators are eligible to participate in
CHST. Establish consistent and equitable program requirements applicable to all types of
material suppliers eligible to participate in CHST.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 13

Provide clearly defined guidance regarding the manner in which owner contracts should be
established when working with multiple types and sources of biomass material to be
delivered to a single biomass conversion facility.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.
Director, Farm and Foreign Agriculture Division
Page 6

Recommendation 14

Provide clearly defined guidance to field-level personnel designating the proper method by
which eligible quantities of deliverable material should be established.

Agency Response:
Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 15
Establish a consistent policy and methodology for material sampling and moisture testing
applicable to all conversion facilities seeking qualification for CHST. Incorporate such
policy into the memorandum of understanding facilities enter into with the FSA Deputy
Administrator for Farm Programs.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 16

Require the field office in Johnson County, Missouri, to (1) review all delivery documents
submitted by participating owners in support of disbursed matching payments; (2) identify
all improperly established dry weight ton equivalents of biomass material eligible for
matching payments (i.e., all those not reduced to zero percent moisture); and (3) recover
all associated improper payments.

Agency Response:

FSA agrees with this recommendation and will work with the Johnson County office,
Missouri to review and recover improper payments found to meet the recommendation
impropriety. The FSA State office of Missouri has the individualized list of the affected
contracts and is in the process of reviewing these contracts with the county.
Director, Farm and Foreign Agriculture Division
Page 7

Recommendation 17

Direct the field office in Shannon County, Missouri, to issue the underpaid amounts of
matching payments for owners who were participating in the program but for which
conversion facility delivery documents were not provided or were overlooked.

Agency Response:

FSA agrees with this recommendation and will work with the Shannon County, Missouri
office to review and correct underpaid amounts found to meet the recommendation
impropriety. The FSA State office of Missouri has the individualized list of the affected
contracts and is in the process of reviewing these contracts with the county.

Recommendation 18

Develop a handbook procedure that clearly designates or sets the factor (tons or dollars)
upon which a CHST contract is considered fulfilled and an owner is no longer eligible for
matching payments.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.

Recommendation 19

Incorporate a second party review to verify the establishment of matching payment
obligations and appropriate approval signatures and dates on owner applications to
participate in CHST.
Agency Response:
Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.
Director, Farm and Foreign Agriculture Division
Page 8

Recommendation 20

Determine whether the circumstances in question constitute a potential conflict of interest
which should have prevented the county executive director from serving as an approving
official for CHST.

Agency Response:

FSA will work with the State FSA offices to review CED oversight and possible conflict
of interest for circumstances in question. The 1-BCAP Handbook provided limitations of
COC delegation including a prohibition on delegating actions and determinations
involving lands owned by STC, COC, CED’s, or other County Office employees.

In addition, due to the current situation with limited funds and the recent release of the
BCAP interim rule on September 15, 2011, which prioritizes BCAP crop establishment
and production payments.

Recommendation 21

Require, through direction to the appropriate State offices, that county offices recover the
improperly issued matching payments associated with deliveries of biomass material
completed prior to approval of the owners’ CHST applications.

Agency Response:

FSA agrees with this recommendation and will work with the appropriate State offices and
county offices to recover improper payments made for biomass material deliveries
completed before the eligible material had acquired an approved CHST application. The
individualized list of affected contracts has been sent to the State FSA offices in Missouri,
Kansas, California, Maine & Alabama.

Recommendation 22

Develop a handbook procedure that provides clear and specific guidance as to the areas of
coverage to be included and addressed during the performance of $50,000 spot checks,
including the frequency and timing of required onsite visits to facilities, examination and
verification steps to be performed, and a form or format to document the performance and
results of performed spot checks.

Agency Response:

Due to the current situation with limited funds and the recent release of the BCAP interim
rule on September 15, 2011, which prioritizes BCAP crop establishment and production
payments, FSA will incorporate the recommendation in the 1-BCAP handbook if funds are
appropriated in fiscal year 2013.
Director, Farm and Foreign Agriculture Division
Page 9

Recommendation 23

Evaluate the circumstances of each case and determine whether the actions entered into or
carried out by the owners and facilities constitute a scheme or device.

Agency Response:

In response to the fast report, FSA advised that the applicable State offices are involved in
examining the case circumstances to determine if the actions by owners and facilities
constitute a scheme or device.

FSA further advised that notices of declined case openings were received from OIG
Investigations for two of the three cases cited; consultation on the third case will take place
prior to initiating any corrective action.

Recommendation 24
Based on the determinations reached regarding scheme or device, initiate appropriate
administrative actions including the termination of any violated facility agreements and the
recovery of any improperly disbursed matching payments plus interest. Coordinate with
OIG Investigations prior to initiating any administrative actions.

Agency Response:
FSA will work with State and county offices to recover any improper payments associated
with schemes or devices noted in OIG finding, and that all facility agreements were
terminated as of March 2010.

Recommendation 25
Create new terms of agreement and guidance that address scheme or device more
comprehensively, and specifically prohibit schemes or devices of this nature. As part of
issuing a program handbook, include guidance that details procedures for investigation,
enforcement, penalties, and appeal rights related to scheme or device determinations.
Agency Response:
In response to the fast report, FSA responded that the BCAP final rule explicitly prohibits
a number of practices associated with these cases and identified as potential schemes or
devices. The final rule specifically defines such practices as program violations. FSA
further responded that corresponding changes are incorporated into the facility agreement
terms and will be further detailed in program policy documents. Officials stated that new
facility agreement terms address facility requirements related to the payment of fair market
price, the issuance of settlement sheets for commingled materials (eligible and ineligible),
and the receipt of payments or reimbursements from owners related to CHST matching
payments including any required repayment in the form of a kickback, value share, or
administrative fee. FSA advised that by month’s end (February 2011) the agency will
Director, Farm and Foreign Agriculture Division
Page 10

issue a program handbook to provide program guidance consistent with the BCAP final
rule and include more comprehensive policy on investigations, enforcement actions,
penalties, and appeals related to scheme and device determinations.

Recommendation 26
Create controls and compliance review procedures at the county office level designed to
detect and identify potential schemes or devices.

Agency Response:

In response to the fast report, FSA advised that Handbook 1-BCAP will include enhanced
guidance for compliance reviews of qualified facilities and owners. BCAP policy will also
incorporate additional controls to ensure that fair market pricing is being paid, including
enhanced data collection from facilities by FSA as part of the funding allocation process.
FSA further advised that it is developing a number of automated controls in BCAP
matching payment software to ensure the county offices have proper documentation from
owners before approving applications and payment requests.
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency (2)
      Attn: Director, Operations Review and Analysis Staff

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
       Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
